A U D I T             M E M O R A N D U M                             N O . 1 7


                                                                              June 8, 1999
To:        Ken Fogash

From:      Walter Stachnik

Re:        Acknowledgment Letters for the Branch of Public Reference



The Office of Inspector General is conducting an audit of the Commission’s Investor
Education and Assistance Program (IEAP). During the audit, we identified an issue that
relates to the Public Reference Branch (PRB) of the Office of Filings and Information
Services (OFIS).

The PRB uses the same computer system, the Agency Correspondence and Tracking
System (ACTS), as the IEAP to record and track inquires from the public. ACTS has
automatically generated acknowledgment letters for both the PRB and the IEAP. The
acknowledgment letters are not applicable to the PRB. Therefore, the letters are
discarded. In fiscal year 1998, the PRB received approximately 14,604 inquiries. Thus,
14,604 pieces of paper (i.e., the letters) were discarded.

We discussed the issue with OFIS officials. They examined the issue further and
discovered the ability to suppress the acknowledgment letter by manually changing the
default. As a result, they issued guidance to instruct their staff in the PRB to manually
change the default when creating a new correspondence record in ACTS.




cc:     Mike Burnett
        Diane Campbell
        Valerie Lenyear
        Steve Mayle
        Jim McConnell
        Darlene Pryor
        Jennifer Scardino
        Nancy Smith
        Cecilia Wilkerson
